No. 19-601
ee

IN THE
Supreme Court of the United States

COLLABO INNOVATIONS, INC.,
Petitioner,
v.

SONY CORPORATION,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that
the document contains 8,989 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true
and correct.

Executed on February 7, 2020

Adda bck

Andrew S. Baluch
SMITH BALUCH LLP

——
